Supreme Court, U.S.
FILED

NOV 0 3 2020

WAIVER

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No. 20-541
James MacDonald

Louis E. Kempinsky, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the untimely petition of certiorari unless one is requested.
The petition is untimely because it was filed more than 150 days after the California Supreme Court denied review
on May 13, 2020. Thus, the petition should be rejected as untimely.
Please check the appropriate boxes:

0 Please enter my appearance as Counsel of Record for all respondents.

2 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
Louis E. Kempinsky and Kempinsky Law Ltd.

I am a member of the Bar of the Supreme Court of the United States.

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed bwa Bar member
Signature
Date: November 3, 2020

:TV

Courtney E. Curtis-Ives
El Mr. El Ms.
2 Mrs. 0 Miss
Firm Kaufman Dolowich & Voluck LLP

(Type or print) Name

Address 11755 Wilshire Blvd, Suite 2400
City & State Los Angeles, CA
Phone (310) 755-6511

Zip 90025
Email ccurtis@kdvlaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

,k:i.,g)c El VED

Robert Dolan (Attorneys for respondents Sheeren Arazm, David Hilty, and 00C Hollyw d
James MacDonald (Petitioner in pro se)
Mark Shaeffer (Attorneys for respondent Lavely & Singer, Martin D. Singer, and Andrew rdal/

6 2020

SUPREME COURTERK
U.S.

PROOF OF SERVICE
STATE OF CALIFORNIA
COUNTY OF LOS ANGELES )
I am employed in Los Angeles County. My business address is 11755
Wilshire Blvd., Suite 2400, Los Angeles, CA 90025, where this mailing occurred.
I am over the age of 18 years and am not a party to this cause.
On November 3, 2020, I served the foregoing documents on the interested
parties in this action entitled as follows:
WAIVER SUPREME COURT OF THE UNITED STATES
by placing [ ] the original [X] true copies thereof enclosed in sealed envelopes
addressed as follows:
SEE ATTACHED SERVICE LIST
[XX] (BY MAIL) I am readily familiar with the practices of KAUFMAN
DOLOWICH VOLUCK LLP for collection and processing of
correspondence/document(s) for mailing with the United States Postal Service.
Such correspondence/document(s) is/are deposited with the United States Postal
Service the same day in the ordinary course of business. I placed such envelope
for collection and mailing on this date following ordinary business practices.
[ ] (BY PERSONAL SERVICE) I caused to be hand delivered such
envelope to the addressee so indicated at the Los Angeles County Superior Court,
Dept. 40, 111 N. Hill Street, Los Angeles, CA 90012.
[ ] (BY ELECTRONIC FILING & SERVICE: I caused the documents(s)
listed above to be filed and served via the Court's Electronic Filing System
through an approved third party vendor, TrueFiling, and such documents(s) were
electronically served on the addressee(s) at the email addresses noted below.
[ ] (BY FEDERAL EXPRESS) I am "readily familiar with the firm's
practice of collection and processing correspondence for mailing via Express
Mail (or another method of delivery providing for overnight delivery pursuant to
C.C.P. ยง 1005(b)). Under that practice, it would be deposited with the United
States Postal Service or other overnight delivery carrier (in this case, Federal
Express) on that same day with postage thereon fully prepaid at Los Angeles,
California in the ordinary course of business.
[XX] (STATE) I declare under penalty of perjury that the foregoing is true and
correct.
[ ]. (FEDERAL) I declare that I am employed in the office of a member of
the bar of this court at whose direction the services were made.
Executed on November 3, 2020, at Los Angeles, California.

--9/
Ttgrkoise Ke.inedy

